a
SUPREME COURT OF THE UNITED STATES
No: 19-2794.

Supreme Court, U.S.
FILED

DEC 2 9 2020
FIRAS M. AYOUBI
Petitioner,

OFFICE OF THE CLERK

-Versus-

_WEXFORD HEALTH SOURCES INC.,
STEPHEN RITZ,
ALBERTO BUTALID,
PERCY MYERS,
ALISA DEARMOND,SCOTT THOMPSON, and
CHRISTINE BROWN
Respondent's.

PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

Firas Ayoubi #R66956
Dixon C.C.
2600 N Brinton Ave.
Dixon, IL, 61021
Petitioner

QUESTIONS PRESENTED FOR REVIEW

1: Did the Seventh Circuit s decision put an unreasonable require­
ment and hieghtened burden of proof in establishing likelihood on
the merits at the preliminary injunction stage?

2: Did the Seventh Circuit properly apply Supreme Court Precedent
to consider circumstantial evidence in the context of the deliberate
indifference standard as set forth by this court in Farmer v. Brennan?

3: Did the Seventh Circuit properly apply the "obvious risk" Canton
analysis in determining the likelihood on the merits for the Monell
claim?

i

TABLE OF CONTENTS

Questions Presented For"Review

-i

Table Of Contents

ii

Table Of Authorities

iii

Citations Of The Official And Unofficial Reports Of Opinions
And Orders Entered In The Case..........................................................

iii

Statement Of The Basis For Jurisdiction.....................................

iv

Constitutional, Statutory Provisions Or Treaties Involved

iv

Statement Of The Case......................................

1

Reasons For Granting The Writ......................

10

I: THE SEVENTH CIRCUIT ERRED■IN AFFIRMING THE DENIAL OF A MOTION
FOR PRELIMINARY INJUNCTION ....
14
A: SEVENTH CIRCUIT’S HOLDING IS IN CONFLICT WTTH PRTrvR
SUPREME COURT AND SEVENTH CIRCUIT DECISIONS IN DETERMINTNC
THAT PLAINTIFF DID NOT ESTABLISH THE LIKELIHOOD^ON^THE^MERITS
B: SEVENTH CIRCUIT DID NOT PROPERLY CONSIDER
CIRCUMSTANTIAL
EVIDENCE AS ADVISED BY THE SUPREME COURT IN FARMER V. BRENNAN
C: MMET^ESTA1^™^

demonstrate a

CULPABLE MENTAL

V?NHARMSAIM AS AETICULATED BY the SUPREME corn? XJnTON

Conclusion

29

Appendix

ii

TABLE OF AUTHORITIES

SEVENTH CIRCUIT'S HOLDING IS .iN CONFLICT WITH PRIOR SUPREME
COURT AND SEVENTH CIRCUIT DECISIONS IN DETERMINING THAT
PLAINTIFF DID NOT ESTABLISH THE LIRLIHOOD OF SUCCESS ON THE
MERITS

Cases
Louisiana Ex Rel Francis vs. Resweber 3?9 U.S
374,376,91 L..Ed 422 (1947).........

459,463,67 S.Ct.
14

Estelle vs. Gamble 429 U.S. 97, 97 S.Ct. 286 (1976)..............

14,15

Gregg vs. Georgia 428 U.S. 153,178,96 S.Ct. 2509,2925, L.Ed.
2d 859 (1976).......... .

15

Hudson vs. Palmer 468 U.S. 517,526-527,104 S.Ct. 3194,3200,
L.Ed.2d 393 (1984)........

15

Washington vs. Harper 494 U.S. 210,255
39, 108 L.Ed.2d 178 (1990)...........

16

110 S.Ct. 1028,1038-

Wilson vs. Seiter 501 U.S. 294,302.111 S.Ct. 2321,115 L.Ed.2d
259 (1991)........

16

Helling vs. McKinney 509 U.S. 25.31-32
(1993) ......................................

15,16

113 S.Ct. 2425,2840

Farmer vs. Brennan 511 U.S. 825, 128 L.Ed.2d. 811(1994)

11,16N17

Greeno vs. Daley 414 F.3d 655 (7th Cir.2005)....................

20

Hayes vs. Snyder 546 F.3d 516 (7th Cir.2008 ).............

13,17

McGill vs. Duckworth 944 F.2d. 344,348 (7th Cir. 1991).

19

Gil vs. Reed 381 F.3d. 649 (7th Cir. 2004)........................

19

Plyes vs. Fahim 771 F.3d 403,412 (7th Cir. 2014)........................

19

Wheeler vs. Wexford Health Sources 689 F.3d 680,682 (7th Cir.
2012)..........

19

Hoban vs. Wexford Health Sources 731 Fed.Appx 5030 (7th.Cir.
2018)....

14,20

iii

Withers vs. Wexford Health Sources 710 F.3d. 688,689 (7th Cir.
2013) .......................... .
. 19
-Ayoubi vs . Dar-fc—229 Fe4vAppx--45-5-$ 499™{-7 th Cir . 2018)v-r-r-.-.~. .

t^vt1-9

Valencia vs. City of Springfield Illinois 883 F.3d. 959,966
(7th Cir .2018)......................................................................................] . . .

.18

Cesal vs. Moats 851 F.3d. 714,723 (7th Cir.2017).......... .

13,18

Bentz vs. Ghosh 718 Fed.Appx 413 (7th Cir.2017)......... ...............

14,19

Cooper vs. Casey 87 F.3d. 914 (7th Cir. 1996) ............... .

... .13,19

Antonelli vs. Sheahan 81 F.3d 1422 (7th Cir. 1996)......... .

19

Murphy vs. Walker 51 F.3d. 714 (7th Cir. 1995).............

19

Rivera vs. Gupta 836 F.3d. 839,841-42 (7th Cir.2016)...........

19

Edwards vs. Snyder 478 F.3d. 827,830-31 (7th Cir.2007).....

.7,19

Rodriguez vs. Plymouth Ambulance Serv. 577 F.3d. 816,830
(7th Cir.2009).............................

...19

Barry vs. Peterman 604 F. 3d 435,440 (7th Cir. 2010)....'.... .

.19

Cooper vs. Salazar 196 F.3d.809,813 (7th Cir .1999).,....... .

.19

Boyd vs. Knox 47 F . 3d . 966 (8th Cir.1995)....................... ............

19

Boretti vs. Wiscomb 930 F.2d 1150 (6th Cir.1991).....................

19

Fields vs. Gander 734 F.2d. 1313 (8th Cir.1984)........................

19

Brown vs. Hughes 894 F.2d. 1505,1538 (11th Cir.1990)...........

19

Hunt vs. Dental Dep1t 865 F.2d. 198,201 (9th Cir.1989).........

19

Loe vs. Armstead 582 F.2d. 1291 (4th Cir.1978)..........................

.19

Constitutional and Statutory Provisions
Title 42 United States Code, Section 1983
United States Constitution Amendment 8

iii

Rules
Rule 65

Federal Rules of Civil Procedure

Treatesies and References
LaFave & Scott §3.7 p.335
Mayoclinic
MerkManuals

SEVENTH CIRCUIT DID NOT PROPERLY CONSIDER CIRCUMSTANTIAL
EVIDENCE AS ADVISED BY THE SUPREME COURT IN FARMER VS.
BRENNAN

Cases
Farmer vs. Brennan 511 U.S. 825

128 L.Ed.2d 811 (1994)

24,25,27

Helling vs. McKinney 509 U.S. 25,31-32,113 S.Ct.2425 (1993)

21,24

Wilson vs. Seiter 501 U.S. 294,302-303,111 S.Ct.2321,115
L.Ed. 2d 279 (1991)........................................................... ...................

16

Hutto vs. Finney 437 U.S. 685-688, 98 S.Ct 2570-72 (

19

)

United States vs. Oregon State Medical Soc. 343 U-. S. 326,333
72 S.Ct. 690,695, 96 L.Ed. 978 (1952)............................................

.19,20

Valencia vs. City of Springfield Illinois 883 F.3d.959,966
(7th Cir .2018)..................................................

25

Hayes vs. Snyder 546 F.3d. 516 (7th Cir.

25

)

Hoban vs. Wexford Health Sources 731 Fed.Appx.5030 (7th Cir
2018).......................................................................... .................................

2 CD

Maltby vs. Chicago Great Western Ry.Co. 347 Ill.App 441 (1952).. 26
iii

Constitutional and Statutory Provisions

United States ConsLitution, Amendment 8
United States Constitution, Amendment 14
Title 42, United States Code, Section 1983

Rules
Rule 65

Federal Rules of Civil Procedure

Rule 801, Federal Rules of Evidence
Rule 609

Federal Rules of Evidence

Rule 608

Federal Rules of Evidence

Rule 404

Federal Rules of Evidence

TreaLesies and References
Model Penal Code. § 202(2)(c)
31 C.J.S.

Evidence §272 p.1023

Jones, Commentaries on the Law of Evidence Vol 2 §235 p.349
Jones, Commentaries on the Law of Evidence Vol 2 §236 p.362
Am . Jur:. Evidence § 545 p.461

PRISONER-PLAINTIFF NEED NOT DEMONSTRATE A CULPABLE MENTAL
STATE IN ESTABLISHING A LIKLIH00D ON THE MERITS FOR THE
M0NELL CLAIM AS ARTICULATED BY THE SUPREME COURT IN CANTON
VS. HARRIS
Estelle vs. Gamble 429 U.S. 9/, 97 S.Ct.286 (1976)

iii

14,15

Farmer vs. Brennan 511 U.S. 825, 128 L.Ed.2d. 811 (1994)........ 25,27
Canton vs. Harris 489 U.S. 378
1112 (1989) .......................................

109 S.Ct.1197,103 L.Ed.2d
26-28

St.Louis vs. Proprotnik 485 U.S. 112,127,108 S.Ct.915 (1988)....27
West vs. Atkins 487 U.S. 42, 54-57, 108 S.Ct 2250 (1988).......

28

Correctional Services Corp vs. Malesko 534 U.S. 61.71,122 S.Ct'.
515 (2001) ........................................................................
i ...... ...........

28

Board of County Comm'rs vs. Brown 520 U.S. 397,404.117 S.Ct.
1382 (1997)...........

....26

Moneli vs. New York City Dep't of Social Services 436 U.S. 112.
;
127
Davis vs. Carter 452 F.3d. 686,691-94 (7th Cir.2006)...............

29

Gibson vs. County of Washoe
Cir .2002).....................................

29

Nev. 290 F.3d.1175,1190-91 (9th

Colie vs. Brazoz County, Tex 981 F.,2d. 237,245 (5th Cir . 1993) . . . . 29
Anacaba vs. Prison Health Services Inc.
706 (11th Cir.1985)....................

769 F.2d. 700, 70529

Howell vs. Evans 922 F.2d. 712,723-24 (11th Cir . 1991)......

. . . .29

Mitchell vs. Aluisi 872 F.2d. 577,580 (4th Cir. 1989) ....... .

28

Lawson vs. Dallas County 286 F. 3d 257,264 (5th Cir.2002)...

28

Garretson vs. City of Madison Heights 407 F.3d. 789 (6th
Cir. 2005)......................................... .................................... ■............................

28

Constitutional and Statutory Provisions
United States Constitution,3 Amendment 8
flfitle 42, United States Code, Section 1983

iii

Rules
Rule 65, Federal Rules of Civil Procedure

Treaties and References

CITATIONS OF THE OFFICIAL AND UNOFFICIAL REPORTS OF
OPINIONS AND ORDERS ENTERED IN THE CASE

The judgment of the United States Court of Appeals for the
Seventh Circuit is unreported. It is cited in the appendix as "
Appx A"

the per curiam decision, No: 19-2794 bears a docket number

of #46 in the Seventh Circuit's general docket. A copy is attatched
in the appendix. The order of the United States District Court
■Southern District of Illinois denying a motion for preliminary
injunction is also unreported. It is identified in the Southern
districts general docket as Document #99 (Report and Reccommendation) and Document #108 (Adoption of Report and Reccommendation).
Copies are attatched as appendix B & C to this petition.

iii

STATEMENT OF THE BASIS FOR JURISDICTION

The—pe^e-e-uri-a m-op-in ion and judgment- of the—Un-i-ted..States Court
of Appeals Seventh Circuit was entered on Sept 3, 2020 (19-2794 Doc
ir 46 & 47). And order denying a petition for rehearing was entered
on Oct 51,1 2020 (19-2794 Doc #49). Copies of these orders are attatched
to this petition as Appendix- #'s A-C. The District Court had orig­
inal, subject matter federal question jurisdiction pursuant to 42
U.S.C. §§ 1331(a) and §§1343. The U.S. Court of Appeals also had
appellate jurisdiction of this interlocutory appeal pursuant to 28
U.S.C.'§1292(a)(l). Thus jurisdiction is conferred by 28 U.S.C. 1254
(1) to this Honorable Court. And therefore, is timely filed pursuant
to 28 U.S.C. §2101 (c)and S.Ct.Rule 13.1 and- Rule 36(a) Federal
Rules of APpellate Procedure.
This case raises questions of interpretation of title 42 of the '
United States Code, Section 1983-and the 8th Amendment to the United
States Constitution. It also raises questions of interpretation of
the deliberate indifference standard as it relates to the context
of equittable relief in the form of a preliminary injunction as
perscribed in Rule 65 of the Federal Rules of Civil Procedure. The
District Court had jurisdiction under federal question jurisdiction
conferred by 28 U.S.C. §1331. Appeals Court had interlocutory juris­
diction under 28 U.S.C. §1292 (a)(1).

CONSTITUTIONAL,STATUTORY PROVISIONS OR TREATIES INVOLVED
United Staes Constitution, Amendment 8
United States Constitution, Amendment 14
Title 42, United States Code, Section 1983
Title 28, United Staes Code, Section 1292(a)(1)
Title 28, United States Code, Section 1294(1)

iv

STATEMENT OF THE CASE

Firas Ayoubi

an Illinois State Prisoner, brought this civil

right's complaint under 42 U.S.C § 1983 against Illinois Prison
Officials (Warden .Scott Thompson, Healthcare Administrator Ms.
Christine Brown), Wexford Health Sources Inc. who is contrac­
ted to administer healthcare at Illinois prisons, Dr. Stephen
Ritz who is Wexford's corporate director of utilization manage­
ment and medical doctors/practioner's at the prison Dr. Percy
Myers, Alberto Butalid and practioner Alisa Dearmond. He claimed
the defendants'- displayed deliberate indifference to his serious
medical need: an neurological movement disorder of unknown ori­
gin. He claimed they (1) refused to send him to a neurologist to
obtain diagnosis and treatment (2) delaying and denying treatment
to address on-going pain and difficulty functioning (3) denying
him specialized housing to prevent injury (bottom bunk housing
to prevent falls and single cell housing to prevent assault)
(4) that Wexford maintained cost-cutting policies and customs,
the moving force behind the doctors deliberate indifference and
thus a deliberately indifferent policy.

Plaintiff-Petitioner suffers from a progressive neurological
movement disorder of unknown origin. It began subtle, with inv­
oluntary movements in his right shoulder about 4 years ago during
his pretrial detention at Cook County' Jail in Chicago, Illinois.
As time went on, this .progressed. Eventually causing constant
twisting and jerking of his extremeties which included his arm
shoulder, torso, neck and at times, his legs. It causes "extreme
pain" when he winds up pulling a muscle from not being able to
control it. At times, it causes him to elbow other people around
him, including cellmates.

-1--

During his stay at the Pinckneyville Correctional Center
he claimed that doctors declined to treat his pain. That despite
his verbal complaints of pain and difficulty functioning

the
only eventual pain perscription was several months later. Which

was limited and low grade over the counter ibuprophen. He- claimed
that this perscription was made after the doctors were served
with the lawsuit. That doctors approached his reported symptoms
with a casual, dismissive attitude-. Referring him to mental
health on different occasions. Placing him for 3 days to be
"monitored" in the infirmary, not for treatment but to justify
denying him. And although mental health professionals opined
a "neurological' and "involuntary1' issue, and mixed observations
by nurses in the infirmary some noting movements and some not,
repeatedly denied plaintiff. That they denied plaintiff despite
persistence and worsening of the condition and their admitted
knowledge that these conditions can appear inconsistent at times
and are difficult to diagnose. Plaintiff also requested a re­
newal of a previously perscribed low bunk permit only to be
denied by defendants. Plaintiff brought his claims under the
premise that Wexfords cost-cutting, deeply embedded practices
was the driving force behind the individual defendants’ deliber­
ately indifferent acts or omissions.

He requested a preliminary injunction. Seeking a consultation
with a neurologist to obtain diagnosis and treatment. Likewise,
he requested defendants be enjoined to provide him "treatment
for the pain" and "specialized" housing to prevent injury. The
court held an evidentiary hearing. Dr. Myers, among other def­
endants testified concerning their knowledge or plaintiffs complained-of symptoms, his condition and their medical knowledge,
skills, training and experience concerning these rare types of

-2)

conditions. They were also questioned regarging their notes in
-the ■ medical—r-ecords - which
-the^-r—ob-s-erv-a-t-i-ons and their
medical conclusions at those particular occasions.

Defendants gave inconsistent accounts about whether they
observed that plaintiffs symptoms/movements appeared "involuntary"
and whether plaintiff reported to them that he was in pain. They
were presented with these prior statements in the medical records
which noted observations of "involuntary" movements and that '
they were associated with pain' (Appx E
expressed "I am not sure why I inserted that portion
part in that collegial" ( r 68
) insisting that plaintiff
never complained about pain. But then two of these doctors later
admitted to having knowledge of the pain "0: Okay. What about
whether or not it was painful? did I tell you it was painful?
A: I chink there was mention of that from the nurse note 0:
okay so you were aware that it was causing me pain? A: there
was a mention rrom the nurse note yeah" ( Rll,12,15,45,67
),
"A: I saw that your pain was not main problem at the time" (
), "A: well I dont think
Rll-12
here. The issue ‘was your movement and you
infirmary to determine if these movements
involuntary" ( R 45,67
) but yet

pain was the issue
were placed in the
were voluntary or

these doctors admitted
that the movements were the source of the pain ( R15-16
)•
They similarly admitted these conditions are difficult to diagnose
and can .appear inconsistent at times- ( R42-43
)•

in response, Dr. Ritz continued to deny these requested
neurology consult requests made by doctors and also imaging scan
requests. He denied these on the same premise, that plaintiff had

-3-

not presented ‘"evidence" of his symptoms, and the movements have
"not been directly observed" even though the record was riddled
with observations from various nurses, doctors and mental health
professionals.
Plaintiff submitted a sworn affidavit in lieu of testifying.
In this affidavit he expressed in detail his experiences with this
condition ( C97). He expressed in detail his experiences with these
defendants and his time spent in the infirmary. And how this cond­
ition was painful and affects his living. That it was "extremely
painful" and still is. That it makes things time consuming such
as "putting on a shirt... eating..even pouring a cup of coffee" (
C 97). He explained how he has to place a chair near his bunk
so he can use it to place his foot on when he needs to come down.
That he fell as a result of "twisting" on an occasion, severely
injuring himself. This, was corroborated by the record (Appx F).
The conditions which are associated with "Chorea" or Choieform
movements are (but not limited to) Parkinsons, Huntingtons Disease,
Tardive Dyskenisia, Tardive Dystonia, Torsion or Idiopathic Dystonia
among others.
The magistrate issued a report and reccommendation, denying the
injunction. In part, because Dr. Myers testified to seeing plaint­
iff outside in a courtyard with "no gait issues" or movement issues.
Even though Dr. Myers could nob even testify how a person with
these types of issues would walk (B56) and even more critically,
that he made this entry, after he was served with a lawsuit.
Which he denied, even though it was clearly established:"Q: Okay
that one time in the chart that you notated it, this was after you
were served summons in this case? isnt that correct? A: No" (B56).
But the waiver of summons and the notation clearly states other­
wise (C9). Nevertheless, the judge denied the injunction and credit­
ed defendant doctors. He also noted his own observation of the Plaintiff

-4-

"at a lengthy hearing" and the plaintiff didnt appear to be experlencmgThe type of pain' he descrTbed'. ( Appx B ). The magistrate
mled that despite that "Ayoubi argues that he will suffer irre^erable harm as the involuntary movements cause him pain" that
the undersigned notes that Ayoubis symptoms have persisted' for
nearly two and a half years while he has been incarcerated and
he has not provided evidence that his symptoms have escalated or
that his health has deteriorated" (
tuat Lite defendants

Appx B

) The judge cited
Lreated Ayoubi based on their objective

Lindmgs after evaluating him" (Appx B) that the "record reveals
that Ayoubi s symptoms did not support a diagnosis of a neurological issue was referred Lo mental health and performed tests"
(Appx B ). The judge did not consider the report of plaintiffs
retained expert, Dr.' Norman V. Kohn an expert in neurology and
neuropsychiatry. ( Appx D ) Who opined otherwise. The judge
finally stated that he would have !no problem" enjoining iDOC
to allow plaintiffs -own:-, hired neurologist to evaluate him at
the prison (Appx B ) This judge did not address the-other aspects
of plaintitfs motion for preliminary injunction. Namely, the
request for pain medication due to the on-going harm of not being
treated for the pain, and the requests for specialized housing.
Particularly, bottom bunk to prevent falls and single cell housing
to prevent assault (due to him elbowing cellmates in a small cell).
The plaintiff reasoned on appeal that the judge was especially
erroneous to his decision because he was presented with bonafied
evidence that he was injured coming down from his bunk.

The plaintiff filed an interlocutory appeal invoking the
"imminent danger" exception to the PLRA. Judge Rosenstengel granted
the request and certified the appeal was taken in good faith. The
Seventh Circuit briefing argued these issues. That the District

-5-

Court erred in finding that the condition was not serious

that
it erred in making credibility determinations and drawing infer­
ences in the evidence in favor of the defendants and that the
plaintiff presented sufficient evidence for the issuance of
a preliminary injunction. (Appellant Br. Doc #AC23
) The
defendants responded that the plaintiff was mistaken on the
standard of review for denial of a preliminary injunction, that
the standard plaintiff relied on was the summary judgment standard
they reasoned that the preliminary injunction phase the judge
is premitted to make credibility determinations and the burden
of proof lies on the plaintiff (Appellees Br.
Doc#AC33
)•
The plaintiff responded that even if the district court could
make credibility determinations and that the burden of proof
resten on him then the judges determination was still "against
the manifest wieght of the evidence" ( Appellant .Reply Br.
Doc # AC38 ). The plaintiff cited evidence in the record in
particular, inconsistent and impeaching testimony of the Doctor
defendants, medical note enteries by defendants which showed
that they had knowledge of the involuntary movements and pain
and failed to alleviate it ( AC38
). He similarly cited
Dr. Norman Kohns assessments or the record and the defendants
medical decisionmaking ( AC23-38 )• The seventh Circuit affirmed.
Il affirmed on the basis that plaintiff failed to show a liklihood
of success on the merits ( CA7 Op.
Doc#AC46). The seventh
circuit acknowledged that the district judge ruled that plaintiff
could not establish "a reasonable likelihood of success on the
merits (because he had not shown that his treatment plan departed
significantly from professional standards) (CA7 Op. pp.3 Doc#AC4£.'
The seventh circuit reasoned that despite plaintiff’s argument
"that the cumulative medical record compels the conclusion that
the refusal of his request for an outside specialist could have
been made only with malice...." that "the record does not support
this contention.As the district court determined no factfinder

-6-

could conclude the defendants deliberately, ignored or seriously
aggravated Ay o ubi ' s c o ndition . .. The reco rd reflects that, -in i~p.sponse to his complaints of pain the defendants placed him under
close observation for several days in the infirmary where he was
§ d ven laboratory tests and perscribed motrin for pain relief"
(CA 7 Op. at pp.3
Doc-rr AC46 ) . They held that Ayoubi had not
"countered this by pointing to anything in the record to suggest
that his care was !so blatantly inappropriate as to evidence
in Len Lionel mis treaunenL likely to seriously aggravate a medical
condition n ? citing Edwards vs. Snyder, 4/8 T.3d.827,831 (CA7 2007).

PlainLiff responded with a Petition for Rehearing (Appx
Doc #AC48 ) • He responded that it wasn't only the "cumulative
medical record" LhaL established likelihood on The merits.
but the doctors own Lesumony, which evidenced conflicting and
contradictory statements, the report of Dr. Kohn which established
the actual standard of care which Dr. Kohn explained that the
Defendants. Myers and Ritz deviated from. And similarly new
medical record entries which showed injury as a result of falling,
and a overidmg of defendants most recent denial in June 2020
by the State Medical Director , Dr. Conway, who is not an employee
of Wexford ( Appx F
). That this evidence certainly can
be presented

lo

a jury. That tends to show that doctors had sub-

jective awareness of plaintiffs involuntary movements and pain,
in the medical notes and failed to alleviate it for several months
( Appx E
). That this delay in treating painful condition,
could consitiute evidence of deliberate indifference that can be
presented to a jury. Plaintiff cited Seventh Circuit holdings to
that affect, which support his legal rationale. The Seventh Circuit
similarly as the District Court did not address the delay and
cu.Frent denial of pain medicine by Wexford. Likewise its opinion

-7-

made no mention of the plaintiffs claims that he is under on-going
threat of injury in living. That he is sleeping 5 ft off the ground
already injured himself, that the threat continues despite the def­
endants refusing to grant him a commonly given low bunk or single
cell permit. After the denial of the appeal by the seventh circuit,
plaintiff was sent to an outside hospital for a MRI

which revealed
"widened sulci at the bilateral parietal convexities suggest of
focal parenchymal volume loss, slightly more pronounced on the

left than on the right.." In other words, brain deterioration and/or
loss of brain mass. Which is consistent with the presence of an
underlying serious neurological disorder-. Plaintiff still has not
seen a neurologist, even months after defendants were made aware
of the MRI reports.
Plaintiff now seeks certiorari of this interlocutory order and
opinion of the Seventh Circuit on different grounds.
First, that the Seventh Circuit's decision departs from long­
standing, established U.S. Supreme Court, Seventh Circuit and other
sister circuit's precedent in determining that he did not establish
a likelihood on the merits. That the seventh circuit applied a hieghtened, and oppressive burden of proof requirement on the prisonerplaintiff at preliminary injunction proceedings.
Second, that the seventh circuit did not properly apply the
principals of this courts holding in Farmer v. Brennan in its analysis
of the submitted evidence. Particularly that plaintiff show a "better
than negligible" chance of succeeding on the merits on the subjec­
tive awareness or culpable state of mind requirement of the delib­
erate indifference standard. That it did not consider competent,
credible and admissible evidence. Substantive and circumstantial.
In particular, the doctor defendants prior recorded recollections,
notes and statements. Which would be admissible at trial. Notes
-8-

that reveal the doctos subjective knowledge of plaintiffs unaddressed
pain and symp-t-oms . S^v-eifad.--months----before an eventtrariy o n e tinre'"pe r scription of over the counter ibuprophen was given. Despite medical
doctors not plaintiffs, request for nsurology consult and different
imaging scans such as "brain stem MRI" and "EEG" as evidenced in
the record.

Third, that alternatively

even if assuming arguendo that pla­
intiff lacked evidence at that time of "subjective awareness" of
the individual doctor defendants as required by the holdings in
Farmer. That the District Court and Seventh Circuit could have, and
albiet should have, applied the Canton V. Harris analysis of deli­
berate indifference in determining the likelihood of success on
the merits. This is due to an additional Mohell claim that was
brought not only in the verified complaint, but also the motion
for preliminary injunction ( Cl; C2 ). Plaintiff contends that,
regardless of doctors subjective awareness, the risk was "obvious"
as articulated by this court in Canton. That also in establishing
the likelihood on the merits, the court should also have weighed
the evidence under the Canton principles.

-9-

Rule 36 (a) Federal Rules of Appellate Procedure.

REASONS FOR GRANTING THE WRIT

There are various reasons for granting this writ all of which
are in the public interest and have national implications through
out all circuit courts and district courts.
(1) The Seventh Circuit is in conflict with its own holdings
(2) It is in conflict with other circuit- courts
(3) It adopts a hieghtened, oppressive burden of proof at
preliminary injunction proceedings, which reject the
principles of Helling Estelle and Farmer
(4) The Supreme Court has not addressed this particular issue
on equitable relief. In particular how much evidence is
enough evidence to establish likelihood on the merits in
the context of. the deliberate indifference standard.
(5) These issues raise questions of Constitutional importance.

It is true that this case does involve well-settled principles
of law. In particular, the deliberate indifference standard and
the eighth amendment to the U.S.Constitution and how its applied
through the principles held in Estelle, Helling and Farmer. The
question here is, involving a prisoner plaintiff who moves for
preliminary injunctive relief at the infancy stage of the case.
And this prisoner plaintiff has only posession of circumstantial

-10-

evidence. But he still faces an on-going continuing harm: unresolved pain, and difficulty functioning with day to day- acti­
vities. Plaintiff asks where is the line drawn on the level of
proof he must present to a judge sitting as a factfinder in a
preliminary injunction proceeding? How much proof is needed to
make a showing of likelihood of success on the merits to show
subjective awareness?

Indeed this court in Farmer held that prisoners can show
subjective awareness or otherwise "whether a prison official
had the requisite knowledge of a substantial risk is
ol fact subject to demonstration in the usual
inference from circumstantial evidence"
U.S. at 842 (emphasis added) and that "petitioner may establish
respondents' awareness by reliance on any relevant evidence"
id. at 848.
which characterize the condition as "inVoluntary" and
iated with pain" (AppxE. He demonstrated.conflicting and
contradictory testimony by the defendant doctors as unworthy
of belief. He used these pieces of evidence not only substantively
to show that it was more likely than not that doctors knew of
plaintiirs pain and symptoms.:* and disregarded it by not perscribing medication, but also used it as impeachment evidence under
and authorized by the federal rules of evidence.

Similarly, he pressnLed evidence in the medics.! records which
evidenced his fall from the top bunk, as substantive evidence
and corroborating evidence to his sworn affidavit where he stated
that he is likely 10 fall or injure himself if defendants are not
enojoined to provide him bottom bunk and single housing permits.

-11--

Which is consistent with this courts approach in Helling vs .
McKinney. Which allowed Certiorari when there was, as here
a request for preliminary injunction. A request made by the
petitioner as to the threat of future harm from particular
housing of an inmate, leaving him under the whim of prison
authorities to subject them to ETS. This court in Helling
did not address what the requisite level of proof is needed
to show "likelihood on the merits" or even the "subjective
awareness" requirement under those circumstances which are
similar to this cases analysis. The right .case is before this
court today.

As previously SLated, plaintiff here, moved for a preliminary
injunction at the outset, for a neurological evaluation 'which
was
erroneously ( AC48
s elve s ( AppxE;F

to

). He requested they be enjoined
R17
to provide him pain medication due to the on-going, and unresolv­
ed pain, not only just the delay of several months in first perscribing him only 6 weeks of ibuprophen. And he requested they
be enjoined to provide housing accomodations to prevent injury,
and at this time further injury. The record here irrefutably
showed that plaintiff was perscribed ibuprophen several months
after his repeated complaints and a handful of low grade pain
relief thereafter in now approximately three years of being
confined in the Illinois Dep't of Corrections. This left him
having to endure extreme pain everyday. It showed that doctors

-12-'

refused to perscribe him a bottom bunk or single housing permits,
that he Fell as a consequence. The record critically shows that
multiple doctors submitted plaintiff for neurological evals
and numerous needed imaging scans such as "brain stem mri" or
suggesting a "eeg" ( Appx E;F
) . The denial was made by a
corporate utilization review doctor thousands of miles away from
Illinois. Someone who never examined plaintiff. After briefing
in the seventh circuit, plaintiff received new evidence which
demonstrated more competent evidence that the corporate utiliza­
tion doctor in Pennsylvania departed from the standard of
Medical Director, Dr. Conway overided this corporation and Dr.
Ritz and approved a consultation, thereby hightening the "like­
lihood of success on the merits".

However, even with this showing
is in conflict with its own Circuit. Where it was held that
(1) delays in perscribing pain medication can amount to deli­
berate indifference, C-utierrez v Peters 111 F.3d 1364 (CA7 1997);
Cooper v Casey 97 F.3d-914 (CA7 1996) (2) That the receipt of
some treatment does not defeat a claim of deliberate indifference
Cesal v Moats 851 F.3d 714,723 (CA7 2017)
(3) that deliberate
indifierence can sometimes be shown with "circumstancial evi­
dence" Hayes v Snyder 546 F.3d 516 (2008)("subjective awareness
and deliberate indifierence normally can be proved only with
circumstantial evidence")
(4) that "self reporting is often
the only indicator a doctor has of a patients condition, and so
there is no requirement that a. prisoner provide objective evi­
dence of his pain and suffering" Hayes v Snyder 546 F.3d.516
(CA7 2008). (5) that pain may be irreperable harm Bentz v

-13-

Ghosh 718 Fed.Appx 413 (CA7 2017) (6) when -the need for specialist
treatment is known [as evidenced here by dr.'s requests and
the plaintiffs expert neurologists reports, as well as the IDOC
medical directors overiding of Wexford's denials] the "obdurate
refusal uo provide it can amount to deliberate indifference",
Hoban v. Wexford Health Sources Inc., 731 Fed.Appx 5030 (CA7 2018)

Likewise the Seventh Circuit did not even address the plaint­
iffs other requests in his motion for preliminary injunction:
namely, the unaddressed pain and threat in living (bottom bunk
and single cell requests)% As reference, Mayoclinic and merkmanuals
identify "chorea" or choeiform conditions as related to Huntingtons,
Parkinsons Disease, Tardive Dyskenisia and idiopathic/torsion
dystonia, all serious medical needs.
ARGUMENT

THE SEVENTH ClRCUiT ERRED IN AFFIRMING THE DENIAL OW A
MOTION FOR PRELIMINARY INJUNCTION

The U.S.Supreme Court in Estelle vs. Gamble included as
among the acts which violate a prisoners Eighth Amendment rights
are those which involve the unecessary and wanton infliction of
pain" Estelle v Gamble 429 U.S. at 103, 97 S.Ct. 286 (1976),
in its reliance on Gregg v. Georgia 428 U.S. at 178, 96 S.Ct.
at 2925 (1976); Louisiana ex rel Francis v. Resweber 329 U.S.
459,463 6/ S.ct 374,376, 97 L.Ed. 422 (1947) and Wilkerson
v. Utah 99 U.S. at 136. Estelle holds that

-14-

medical care ror those whom it is punishing by incarceration.
An inmate must rely on prison authorities to treat his medical
needs if the authorities fail to do so, those needs will not
be met. In worst cases such a failure may actually produce .
physical torchure or lingering death...the evils of most imme­
diate concern to the drafters of the amendment, in less serious
cases, denial of medical care may result in pain and suffering
W'hich no one suggests would serve any penological purpose’ citing
Gregg v Georgia, supra at 173 96 S.Ct. at 2924-25 (joint opinion)
the
infliction of such unnecessary suffering is inconsistent
with contemporary standards of decency as manifested in modern
legislation codifying the common-law rule that [l]t is but
just that the public be required to care for the prisoner who
cannot by reason of the deprivation of his liberty care for
himself, Estelle 429 U.S. at 103-104. Estelle concluded that
deliberate mdiirsrencs to serious medical needs of prisoners
constitutes the unnecessary and wanton infliction of pain’..„
proscribed by the Eighth Amendment this is true whether the ind­
ifference is manifested by prison doctors in’their response to the
prisoners needs or by prison guards in intentionally denying or
delaying access to medical care or intentionally interfereing with
the treatment once perscribed. Regardless of how evidenced

deli­
berate indifference to a prisoners serious illness or injury states
a cause of action under §•: 1983 n i id. at 105.

The Supreme Court later held in Helling v. McKinney,

that the

[Eighth] Amendment also imposes duties on these officials , who
must provide humane conditions of confinement; prison officials
must ensure that inmates receive adequate food, clothing shelter
and medical care, and must take reasonable measures to guarantee
the safety of the inmates M 1 Helling v McKinneyy 509 U.S. at 3132 113 S.ct. at 2480, citing Hudson v Palmer 468 U.S. 517,52627, 104 S.ct. 3194, 3200, L.Ed.2d 393 (1984), Washington v.

-15-

Harper 494 U.S. 210, 225

110 S.ct. 1028,1038-39 108 L.Ed.2d 178
(1990). The Helling court stated that "in a suit... insofar as it

seeks injunctive relief to prevent substantial risk of serious
injury from ripening into actual harm the subjective factor,
deliberate indifierencs, should be determined in light of the
prison authorities current attitudes and conduct" Helling,Supra.
at 361' 113 S.Ct at 2482 or in other words the Helling court
did not require manifestation of actual harm before an injunction
could be imposed.

The court in Farmer v. Brennan concurred, But stated that
in establishing "deliberate indifference" a prisoner-plaintiff
must show (l) that the condition is one that is "objectively
sufficiently serious" Farmer v. Brennan 511 U.S. at.834,,128 L.
Ed. 2d 811 (1994) and (2) a subjective showing that the health
professional disregarded a risk of harm which he was aware" id.
at 834 or otherwise a sufficiently culpable state of mind" id.
A "sufficiently culpable state of mind" is one of "deliberate
indifference" to an inmates health or safety Wilson supra 501
U.S. at 302-303, Hi S.ct. at 2326 (1991), the Farmer court
described it as "a state of mind more blameworthy' than negligence"
id at835 tnat the standard or purposeful or knowing conduct
is not however necessary Lo satisfy the mens rea requirement of
deliberate indirrerence ror claims challenging conditions of
confinement" id at 836. it equated "subjective awareness
with "criminal recklessness” standard as articulated in the
Model Penal Code §202(2)(c) id. at
rather than the
"risk was obvious" test articulated in Canton v. Harris, 489 U.S.
378,09 S.Ct 1197, 103 L.Ed.2d 1112 (1989). But this standard
m Farmer applied to establishing mens rea on individual defendants.
The obvious risk test still, according to language of the precedent, ®^ill applied to municipal liability claims involving the
conditions of confinement.
-16-

With that being stated. The Seventh Circuit here failed to apply
thes e--s-t-andards . • • ......... .......................... —.... ,--------. .____ .

A:
SEVeNIH CIRCUIT'S HOLDING IS IN CONFLICT WITH PRIOR SUPREME COURT

AND-

seventh circuit decisions in determining that plaintiff

DlD NOT ESTABLISH THE LIKLIHOQD OF SUCCESS ON THE MERITS

As stated above
make it clear.
can

i-he. principles of Estelle, Helling and Farmer
on

ment
harm before a prisoner can obtain equitable relief

and that
prison authorities are deliberately indifferent to. a prisoners se­
rious medical needs ir they have "knowledge" of a risk and disre­
gard it. xhat ii can be established through "circumstantial evi­
dence" or "reliance on any relevant evidence"
848.
stan­
dard in Gutierrez v Peters 111 F.3d. 1364 (CA7 1997) where it
—Id. i_hat subjective awareness and deliberate indifference normally can be proved only with circumstantial evidence" id. at 1364.
That selx reporting is often the only indicator a doctor has of
a patients condiLion, and so there is no requirement that a pri­
soner provide objective evidence of his pain and suffering" Hayes
v. Snyder 546 F.3d 516 (CA7 2008). True these cases were ruling
on issues relating to summary judgment rather than preliminary
injunction relief. But plaintiff does not see why the evidence
cant be applied the same. Indeed the summary judgment standard
entails just that whether a plaintiff could produce evidence

-17-

so as to allow a

factfinder [to] conclude the defendants deliber-

ately^ignored or seriously aggravated Ayoubis condition" CA7 op.'
at pp.3. Oi course plaintiff would need to show similar evidence
to survive summary judgment and proceed to trial, why should this
same evidence not be considered here?
ihe Seveni.h Circu± t here has seemingly departed from the
common standards set forth in Farmer and Helling. And including
ius own holdings. It adopts a hieghtened burden of proof to
show likelihood on the merits, which in its previous holdings
describes as a beuier than negligible" chance of suceeding on the
merits, Valencia v. City of Springfield Illinois 883 F.3d. at 966
(CA7 2018) that a party moving for preliminary injunctive relief
at 966. Bu L that is precisely w<hat standard that
was placed on ihe plamtiri. Absolute success. Rather than

Plaintiff presenued evidence in the form of the doctors
testimony acknowledging knowledge of the pain (Rll,12,45,61,
their notes and prior recorded recollections (Appx E )which
evidences subjective awareness and pharmacological records
which irrefutably evidence one ibuprophen pill for a dental
issue, and absolutely zero pain medication after that until
several months later ( Appx E
) convienently after defendant
Myers was served with the lawsuit, this departs from its
holdings in Cesal v Moats 851 F.3d 714,723 (CA7 2017) which
held that the reciept of some treatment does not defeat a
claim of deliberate indifference, and Gutierrez v Peters
which stated "this courts post Estelle decisions > as well as
those of the other circuit courts have repeatedly recognized
that delays in treating painful medical conditions that are
-18-

not liie-threatening can support eighth amendment claims" Gutierrez 111 F.3d 1364 (CA7 1997) See.. al.s.o_.Cooper v. -Cas-ay—97- F.3M914 (CA7 1996)(2 day delay), Antonelli v. Sheahan 81 F.3d 1422
(CA7 1996)(delay in addressing 'pleas for psychological treat­
ment), Murphy v Walker 5 F.3d 714 (CA7 1995)(several months delay)
Bentz v Ghosh 718 Fed.Appx 413 (CA7 2017)(delay in -treating tooth
pain in preliminary injunction proceedings), Barry v Peterman
604 F. 3d 435,440 (CA7 2010)(delay in treating tooth pain) Rivera
v Gupua 836 F.3d. 839,841-42(CA7 2016)(few days delay), Rodriguez
v Plymouth Ambulance Serv. 577 F.3d. 816,830 (CA7 2009)(fourday delay), Edwards .v Snyder 478 F.3d 827,830-31 (CA7 2007).
This also departed from other circuit holdings which held the
same Lhau delays can constitute deliberate indifference, see
Boyd v Knox 47 F.3d 966 (CA8 1995); Fields v Gander 734 F.2d 1313
(CA8 1984);.Boretti v Wiscomb 930 F.2d 1150 (CA6 1991); Brown v
Hughes 894 F.2d 1533,1538 (CA11); Hunt v Dental Dept 865 F.2d 198
201 (CA9 1989); Loe v Armistead 582 F.2d 1291 (CA4 1978). But
that is unequivica1ly exactly wnat occurred here. Not only several
months delay initially. But currently, absolutely zero medication
for the pain or otherwise.

This

was not acknowledged by
Even though plaintiff presented.evidensezof
ongoing pain, and also ongoing risk of injury in living. This
concept and princxple was also highlighted in Supreme Court
precedent. See Hutto v Finney 437 U.S. at 685-688, 98 S.Ct. at
2570-2572 (upholding order designed to halt an "ongoing viol­
ation in prison conditions) likewise in Farmer, "this attatches
to :: conduct at the Lime suit is brought and persisting thereafter
. .An inmate seeking an injunction on the ground that there is a
contemporary violation or a nature likely to continue" Farmer at
845-846, Quoting United States v. Oregon State Medical Soc. 343
-19-

U.S. 326, 333

72 S.Ct. 690,695. 96 L.Ed. 978 (1952). But the
-S e v e n th ■ C i r cu i -t—f-a i 1 ed—fe-6—£rpp-l y --th i~s—s~t a n d a r d and" app±y -it T7CT
the current evidence. It failed to consider "prison authorities
current attitudes and conduct" Farmer at 845, Helling at 36.
There is no disputing that he still suffers pain, that he still
has no single cell housing or bottom bunk permit, that he fell
already and-injured himself that the only neurologist and
expert witness in this case insisted on the necessity to obtain
a consultation and the top medical director, albiet a state
employee,Director Conway overided these very defendants denials.
None of this was considered.

The District court

denied injunctive relief in part on the
premise that AyouDi argues that he will suffer irreparable harm
as the involuntary movements cause him pain....the undersigned
notes that Ayoubi's symptoms have persisted for nearly two and
a half years and he. has not provided evidence that his symptoms
u.ave escalaLed or chat his health has deteriorated" ( Appx B
).
This conclusion is not only inconsistent with the Seventh Circuit
holding in Hayes, 546 F.3d 516 at *11 which stated that "seif
reporting is often the only indicator a doctor has of a patients
condition.... there is no requirement that .a prisoner provide
objective evidence of his pain and suffering" citing Greeno
v Daley 414 t.3d at 655 (CA7 2005) bub alsouif s/iholding; in_.Hoban v
Wexford Health Sources Inc. 731-Fed.Appx 530 (CA7 2018) which
that particular district court alleged the same, that Hoban
wouldnt sufier irreparable harm because "his complaints go back
as far as 201_l, id. at 4. But the seventh circuit reasoned that
"even though Hoban endured pain since 2011 his pain is ongoing
and unresolved" id. at 86, regardless if that case dealt with the
summary judgment phase or not it is operatively analogous to
this case. Evidence is evidence, no matter what "proceeding" its in.
-20-

But it does not end'at Hoban

or Hayes. It flies' in the face of
the Holding in Helling v McKinney, which held that "it would be
odd to deny an injunction to inmates who plainly proved an un­
safe life-threatening condition in their prison on the ground
that nothing yet had happened to them. The courts of appeals
have plainly recognized that a remedy for unsafe conditions
need not await a tragic event" Helling 509 U.S. at 33. It stated
chat 'the Eighth Amendment protects against future harm to inma­
tes is not a novel proposition. The Amendment as we have said,
requires that inmates be furnished with the basic human needs,
one of which is 'reasonable safety f M id. at 33 citing DeShaney,
Supra, 489 U.S. at 200, 109 S.Ct. at 1005. But a "tragic event",
has already occurred, plaintiff fell already and sufferred pain.
over and over. But it doesnt end there the pain continues, not
surprisingly unaddressed, and the threat in living continues
by plaintiff still being without a permit for specialized housing.

B:
_SEVENTH CIRCUIT DID NOT PROPERLY CONSIDER CIRCUMSTANTIAL
EVIDENCE AS ADVISED BY THE SUPREME COURT IN FARMER VS. BRENNAN

The Seventh Circuit affirmed the denial of this request for
injunctive relief on the premise that plaintiff did not point
"to anything in the record to suggest that his care was so
blatantly inappropriate as to evidence intentional mistreatment
likely to seriously aggravate a medical condition I! ! CA/ Op. at
pp.3, citing Edwards v. Synder 478 F.3d 827,831 (CA7 2007). It

-21-

de Lermined that ihe

reco rd reflects that, in response to his

complaints or pain, the defendants placed him under close obs­
ervation for several days in the infirmary where he was given
laboratory tests and perscribed motrin for pain relief. Based
on the assessments rrom. that rime and other records ) 5 the doctors
concluded that the appropriate treatment plan was to continue
to monitor his condition rather than refer him to an outside
specialist CA7 opn ai pp. 3. ihis finding is erroneous in several
different ways. First the record does not reflect that plaintiff
was "closely" monitored for "several days" in the infirmary, It
actually reflects that the defendants admitted at the hearing
that its was a total of abo-ut 8 observations by nurses lasting
seconds in the span of 3 days not several. The third day plaintiff
was discharged in rhe morning ( C2. attl-4 .). Next the record
does not show he was perscribed any pain medicine in the infirm­
ary, to the contrary
clear as daythen several
months delay until Dr. Myers decided to perscribe generic ibuprophen after he was served with a lawsuit ( Apx E), then a
complete absence of adequate pain treatment after that,
The record reflected "inablility" of doctors to diagnose his
condition (Report of Dr Kohn Appx D ) this inability was not
surprising because the defendants themselves admitted it is
"difficult" to diagnose ( R11,R27
). Which is reasonable that
they, would request a neurology evaluation on multiple occasions
(

Appx E;F
scans ( Appx E;f

) note the need for "eeg" and "brain stem MRI"

) And even yet, there own State Medical Director going against the defendants by overiding them ( Appx F )
none of this was considered. if it was, it was considered errone­
ously. The Doctors insisted they were not told about
-22-

pain at

times du-ring~- the-Hr—fc-es-timony—wa~s easily contraii'cted~by their
own testimony at the Same hearing where they acknowledged the
existence of the pain ( RIIH12,45,67 ) but also their own notes
which they signed, evidencing no other than "involuntary11
movements and "associated with pain" (
Appx E
) but yet a
total absence of pain medicine
nt. ihis is admissible evidence that

a jury-

under the federal Rules of evidence.

by the rules
ways. it can be considered as a "busiunder 801 FRE. An "Admission by Party Opponent"
"Statement against Interest" under FRE 801. It could be
used as evidence for character for Lruthj.uln.ess or for impeachmeni under rule 608 FRE or 609 FRE. it could also be used
arguably as also probative under FRE 404 (b) to show intent
motive
M. 0. propensity, plan, preparation
etc. For eg. Myers testified
that he observed plaintiff on numerous occasions throughout
several months time span, and in those occasions he has observed
plaintiff in the courtyard with "no gait issues"
that plaintiff was faking ( R56
. one
time notation in substantiating his claim or defense ( R56
)•
But he was' questioned about the
because it was made the
was served with
summons in this case ( R56
) he denied of course ( R56
)
but any rational juror can wiegh these facts for purposes of
impeachment under 608 and 404 FRE. The "record" that the Seventh
circuit alleges to be devoid of evidence is infact riddled with
it. These doctors on numerous occasions noted
the presence of
pain, and involuntary movement. 1The record showed a prior bottom
bunk perscription by a LPN who is not a party to this action, a
-23-

permil wuich consequencially expired, that the defendants refused
to extend or re-issue. Which resulted in of course, an eventual
fall ( AC48
—tlqJ;—imm.adiax.e-Lybut -.over- tiine-.-.Sorne-thieg—-this...
very court acknowledged could happen
"We have great difficulty
agreeing that prison authorities may .not be deliberately indiff­
erent to an inmate s current health problems but may ignore a
condition of confinement that is sure or very likely to cause
serious illness and needless suffering the next week or month
or year" Helling 509 U.S. at 33. But the District court, and
s logic is not consistent with this

princ-

Indeed, all of this was presented to the Seventh Circuit.
Likewise the recent overiding of the denials by the State Medical
Director Dr. Convey and evidence of '''progression" continued
involuntary movements and pain in the recent records was subm­
itted in his petition for rehearing. Records which were not at
the time of briefing existent or available to plaintiff. (AC48 )
This evidence which established defendants "current attitudes
and conduct" Helling, Supra at 36, 11J S.ct. at 2482 and the
current state of plaintiffs condition

which is not in line

with what the district court alleged, that there was no "evidence of progression or deterioration" ( Appx B
). Likewise
i-his circumstantial and substantive evidence was supposed to be
considered, by the Seventh Circuit according to holdings from
the U.S. Supreme Court.
"Whether a prison official had the requisite knowledge of a
substantial risk is a question of fact subject to demonstration
in the usual ways, including inference from circumstantial evide­
nce" Farmer v Brennan 511 U.S. at 842, citing C.F.Hall (caution­
ing against
coniusing mental state with the proof of its
existence ) , and a ractfinder may also conclude that a prison
-24-

o f f ic-i £ 1 knew of a substantial risk trom the ■ verv fact that the
risk was "obvious" id. at 842, citing LaZave..& Sc-O-tb—§-3-. 7-..p335("[i ] f the risk is obvious so that a reasonable man would
realize it, we might infer that [the defendant] did in fact
realize it, but the inference cannot be conclusive, for we knowthat people are not always conscious of what reasonable people
would be conscious of"). Farmer gave an example of such evidence
"if an eighth amendment plaintiff presents evidence showing that
a substantial risk of inmate attacks [or in this case knowledge
of pain or difficulty functioning] was 'longstanding, pervasive,
well documented or expressly noted by prison officials
being sued has been exposed to information concerning the risk
and thus 'must have known about it then such evidence could be
*t t

id at 842-843 But
uhe SevenLh Circuit did not accept this evidence for what it
is. It departed from Farmer. Indeed Farmer mandated nothing less
than to accept competent admissible, circumstantial evidence.
[a] "petitioner may establish respondents awareness by reliance
on any relevant evidence" id. at 848. Of course the seventh
circuits prior decisions adopted this approach that "subjective
awareness and deliberate indifference normally can be proven
only with circumstantial evidence" Hayes v Snyder 546 F.3d 516
at -20.(CA7 2008) ihat is,until this departure in this appeal.

Strikingly, this does not seem to be in lockstep with its
approach in Valencia v. City of Springfield Illinois 883 F.3d.
959 966 (CA7 2018) where it didnt require an "absolute" likelihood of success on the merits

but a "better than negligible"
chance of it. id at 966. However there is nothing else that the

-25-

plaintiff can produce in this case"' short of' a ~s ighed con f e s s i'on
by the defendants. Therefore plaintiff clearly presented enough
evidence for Wexford to be enjoined to alleviate his ongoing pain,
risk from further falls and serious injury, and appropriate
diagnosis by no longer stonewalling plaintiffs attempts to obtain
a neurology consultation. See also as reference, Maltby et al
v. Chicago Great System Ry.Co 347 Ill.App 441 (1952), 31 C.J.S.,
Evidence

§272 p.1023, Jones, Commentaries on the Law of Evidence

Vol 2 Sec 235-236 p. 349 and 362; see also Am.Jur.Evidence Sec 545
p. 461.

C:

PRiSONER-PPLAlNTiFF'NEiSD NOT DEMONSTRATE A CULPABLE MENTAL
STATE IN ESTABLISHING A LIKLIHOOD ON THE MERITS FOR THE
MONELL CLAIM AS ARTICULATED BY THE SUPREME COURT
IN CANTON VS. HARRIS

Even if assuming arguendo that plaintiff lacked evidence of
subjective awareness or deliberate indifference under the second
prong of the standard against individual defendants. Alternatively,
his claim of municipal liability against Wexford and IDOC for
"maintaining cost-cutting policies" that led to or artibuted to,
the delays or denials for treatment, pain medication or permits
need not demonstrate the "mens rea" requirement under Canton vs.
Harris., 489 U.S. 378,109 S.ct. 1197 103 L.Ed.2d 1112 (1989);
Monell vs. New York City Dep't of Social Services 436 U.S. 112,
127, 108 S.Ct.
(
) and Board of County Comm'rs vs.
Brown 520 U.S. 397, 404 117 S.ct.1382 (1997). As stated in
Farmer regarding the mens rea of individual defendants "here

-26-

- Li-

XoL^od xo uiojsno 9qj JBqj

(17)

pus uoxjobul 10 Aoxqod jbxoxjjo ub
O J S'UX JUnoUiB JOB 01 BXnj lBj. PUB 90U313 JJ Lpup 9t(B 19 q X "[ 9 p aq:} 10
JBAOXddB ^TOBp ( £ ) UX0JJBd
pons to aoxjou 9Axjonxjsuoo ao oopou
(c) s99ULB;9p jU0um§XBxxB0xd ao? S0XOU0O-J.01U0 pBOTp0Ul p0J pUBqS XIII
jo uaajjud ju0js.Tsa0d.puB xbbjo b (p) A^oqs jsniu jjxjuxBpdu
^IIiq^TI q^ns aoj sju0Ui0XTnbsa oqj p0uij0p qoiqM ‘jxnoaxp qjg
■JU0JX0 jBqj oj opqBxp punoj 9q
S0ljt L^dTOTunu] JBqj ppaq (8861)1 ST6 30'S SOT ‘LlVzW ’S’n
58V ppujoadoaq sa sxnoq’jq ux janoo s-RL " sotjou sATjonajsuoo
oj 9np snoTAqo sbw psxa oqj jBq^ •Aj0axjbux9jjb paBpuBjs
JBqj
poxpddB 0ABq ppnoqs puB 0ABq ppnoo.janoo joxxjsxq 0qj eaoi

-oaaqx •(

ZO

) uoLjounCux AxBuxuixpBxd

aoj uoTjom aqj osjb jnq
jou pojBjnopjan sbm sxqp,
•suotjob sjUBpu9 30p "[BnpTATput 9qj puxqaq 3oao: SuxAxap 0qj 9X9M
S9xoxTod Suxjjno-jsoo jbuoxjnjxjsu.ooun ‘oxiubjsAs jBqj SuxnSxy
' ujxbto pj^uoq b jqonoaq JJxjuxBpd jBqj pejndsxpun sx jx
9a0p

(

T°

) JTa LBidmoo poxjxaoA ©qj at Apuo

'178 3B

u0Axjo9Cqo jnq §utujAub

”PT

sb

‘boljou 9a l JOP.J.J suoo ao sssusnoiAqo
uo p9sxui9xd oq oj AjxpxqBxp SuTjjTtaxsd ‘ souBasijxpux 010x0
-qTTsP 3° SuxpuBjsaopun uojubo sqj oqxaosBp oj paup aq ppnoA\ jxH
J Bp J 9 J B J S O J UO oUX Oo U0pa

‘ P78 JB px ..JBXOXJJO . pBJU0UIUXBAoS B

30 J Bp J UlOaj JOUlJS Lp SB AjXJUB J B J U9UIUX0 AOo

B iO pUXtU JO 0JBJ s

BAxjOBfqns 0pj aoj qoxBBs Aub PU0JJB P|_n0ft Ajpnoxjjxp jBnjdaouoo
djqBa9p lsuoo sa0AO0aouj Abs oj ss0jp99U(1 jno juxod .pxp aauixBq jnq
■0OUBX9jj Lpu l 0jBaoqxpap Suoad puooas j.oj paBpuBjs 9pj aq ppnoqs
ss9uss0Ljosa

japj Suxppoq ui ‘(o)(2)202§ 3P°0 IBuaq popoH
oux_xo 688 ax g q ITS xauixBq ..uixBq snoxaos jo qsxa jBXjUBjsqns
b ^aBooasip Apsnoxosuoo
jsniu uosxad b £Suljj0s xaqjxa up
Apssapqoax job oj 0uibs 0qJ sx jpnsax apj jnq •pajoxpjux oq
jbulhiuo

PI nous j u 0 tu-p-s-Tund- -uj-©pM—q-Bu-x b §b~ a-sxrq j- - sojapesx j x sxaqj' : "juguiq
-sxund joxpjux oqAv 9sopj jsuxbSb SBJBJOSl pOBOaddB 0AXJO0CqnS B

Ancaba v Prison Health Services Inc.. L6F• 2d. 700,705-06 (CM 1
1985)(policy of limited funding and requiring court orders for
certain medical treatment was deliberately indifferent policy),
see also Gibson vs. County of Washoe Nev 290 F.3d 1175,1190-91
(CA9 2002); Colie vs Brazoz County, Tex 981 F.2d 237,245(CA5
1993)(inadequate monitoring lack of arraingments for transfers
to medical facilities); Davis vs Carter 452 F.3d 686,691-94
(CA7 2006)(holding plaintiffs deliberate indifference claim
oi a municipal.policy or inordinate delay in providing methadone
treatment was supported by evidence of absence of policies and
procedures to ensure timely treatment)

on the merits
by not applying the Canton standard of deliberate indifference
as to the Monell claim. And the appropriate remedy would be to
remand to '-he SevenLh Circuit to apply that standard.

CONCLUSION
There is no mistake here, This Honorable Court is the last
hope for the plaintiff. It spelled it out perfectly in Estelle,
"infliction of unnecessary suffering on prisoner by failure to
tneat his medical needs is inconsistent with contemporary stan­
dards of decency and violates the Eighth Amendment" There is
no decency in keeping the plaintiff here suffering through
needless pain and suffering', and repeated falls , this was
never his perscribed sentence nor should it be according- to
our framers and moreover common morality and compasion that

-29-

every human being should possess. Whether they are a judge, juror,
prisoner, or landscaper. Regardless of background. This is the
common moral decency and compassion the plaintiff asks this Hon­
orable Court today. Grant this writ in the interests of justice,
the public!,' fairness and decency.

RESPECTFULLY SUBMITTED

Dated and Certified on this

2Z

Day of March 2021

Firas Ayoubi #R-66956
Dixon Correctional Center
2600 N Brinton ave.
Dixon, IL, 61021

-30-

